<html>
<title> - [H.A.S.C. No. 113-49]REBALANCING TO THE ASIA-PACIFIC REGION AND IMPLICATIONS FOR U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 113-49]

      REBALANCING TO THE ASIA-PACIFIC REGION AND IMPLICATIONS FOR

                         U.S. NATIONAL SECURITY

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 24, 2013




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                      U.S. GOVERNMENT PRINTING OFFICE

  82-464                  WASHINGTON : 2014
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  









                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                Kimberly Shaw, Professional Staff Member
                        Spencer Johnson, Counsel
                           Aaron Falk, Clerk














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Wednesday, July 24, 2013, Rebalancing to the Asia-Pacific Region 
  and Implications for U.S. National Security....................     1

Appendix:

Wednesday, July 24, 2013.........................................    39
                              ----------                              

                        WEDNESDAY, JULY 24, 2013
   REBALANCING TO THE ASIA-PACIFIC REGION AND IMPLICATIONS FOR U.S. 
                           NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Auslin, Dr. Michael R., Resident Scholar, Asian Studies and 
  Director, Japanese Studies, American Enterprise Institute......     3
Cronin, Dr. Patrick M., Senior Advisor and Senior Director of the 
  Asia Program, Center for a New American Security...............     6
Roughead, ADM Gary, USN (Ret.), Annenberg Distinguished Visiting 
  Fellow, Hoover Institution.....................................     8
Shinn, Dr. James, Lecturer, School of Engineering, Princeton 
  University.....................................................    11

                                APPENDIX

Prepared Statements:

    Auslin, Dr. Michael R........................................    46
    Cronin, Dr. Patrick M........................................    65
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Roughead, ADM Gary...........................................    83
    Shinn, Dr. James.............................................    93
    Smith, Hon. Adam.............................................    44

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................   103
 
   REBALANCING TO THE ASIA-PACIFIC REGION AND IMPLICATIONS FOR U.S. 
                           NATIONAL SECURITY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 24, 2013.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I would like to welcome everyone to today's hearing on the 
rebalancing strategy to the Asia-Pacific region and 
implications for U.S. national security. This is an important 
topic for the committee and we have a distinguished panel of 
witnesses before us here today.
    Since the President's Defense Strategic Guidance was 
released a year and a half ago, this committee has worked to 
understand the details. The key pieces appear to be the 
rotational deployment of U.S. Marines to northern Australia and 
the first deployment of the Navy's littoral combat ship to 
Singapore. But we are still missing a good understanding of 
what the U.S. military is and should be doing in the region.
    Let me be clear. I don't think there is any disagreement on 
the goodness of rebalancing to Asia. I hope our witnesses today 
will give us their insight to some very important questions. 
What should a robust strategy look like? What are the regional 
security concerns of the U.S., including and beyond the issue 
of China? What opportunities are we missing? Can the 
rebalancing be effective without additional resources? How will 
sequestration impact the capabilities and capacity of the U.S. 
military to rebalance to Asia, especially when we are still 
drawn to respond to crises in other regions? And if the U.S. 
can't effectively and fully execute the strategy, how will the 
region's militaries view us?
    To testify before the committee today, we have Dr. Michael 
Auslin, resident scholar of Asian studies and director of 
Japanese studies at the American Enterprise Institute; Dr. 
Patrick Cronin, senior adviser and senior director of the Asia 
Program at the Center for a New American Security; Admiral Gary 
Roughead, U.S. Navy, retired.
    And you said your wife is giving you an ``F'' on your 
retirement?
    [Laughter.]
    The Chairman. Well, we are glad to have you back.
    Annenberg distinguished visiting fellow at the Hoover 
Institution.
    Dr. James Shinn, lecturer at the School of Engineering at 
Princeton University and former assistant secretary of defense 
for Asia from 2007 to 2008.
    Very distinguished panel.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I thank you for this 
hearing, and I thank our witnesses for appearing before us, and 
look forward to their testimony and the questions.
    Obviously, the Asia-Pacific region is of critical 
importance to the United States and growing importance 
economically, politically, a number of different countries that 
we have complex relationships there. And I think it is 
perfectly appropriate to focus more attention on that region, 
build more relationships, and figure out how we can be more 
effective in that area.
    But as the chairman said, the devil is always in the 
details. What does that mean, particularly within the 
Department of Defense? What does that mean in terms of how we 
shift our assets? What assets are critical for us to be 
successful in this? And also, the rest of the world has not 
stopped being an issue, obviously, with Syria and Egypt and 
many other places. So as we rebalance, how do we keep our eyes 
on some of the other challenges that we have in other parts of 
the world?
    And then the most interesting question is, of course, how 
this affects our relationship with China. How do we do this in 
a way that does not make this look confrontational, but really 
makes it look like we are, you know, looking for partners 
throughout the region, including China, frankly, to deal with 
some of the challenges that we have in that area and around the 
world as China increasingly has a presence outside of the Asia 
region.
    So this is, I think, a great opportunity for our country to 
make this pivot, to make this shift to a greater focus on Asia, 
but figuring out exactly what it means and what the best 
policies are to implement it effectively is critically 
important for this committee and for this Congress.
    I am very pleased to have four such experts here who can 
help us work our way through that. And I look forward to this 
hearing. And again, I thank the chairman for holding it, and I 
yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 44.]
    The Chairman. Thank you.
    Dr. Auslin.

  STATEMENT OF DR. MICHAEL R. AUSLIN, RESIDENT SCHOLAR, ASIAN 
  STUDIES AND DIRECTOR, JAPANESE STUDIES, AMERICAN ENTERPRISE 
                           INSTITUTE

    Dr. Auslin. Mr. Chairman, Ranking Member Smith, members of 
the committee, thank you very much for the opportunity to 
testify today about the administration's rebalancing to the 
Asia-Pacific region and its implications for national security 
for the U.S. It is an honor to be here and to sit beside my 
distinguished co-panelists.
    I have testimony that I have submitted for the record, so 
if you will permit me, I will just make a few comments.
    The Chairman. All of your testimonies will be included in 
the record, without objection.
    Dr. Auslin. Thank you, sir.
    The Chairman. Doctor, could you move that mike just a 
little?
    Dr. Auslin. I am happy to.
    The Chairman. Thank you.
    Dr. Auslin. Let me just make a few comments, maybe set the 
stage for answering some of the questions, Mr. Chairman, that 
you raise.
    I think that there are probably three questions that are 
most useful to try to answer when we are thinking about the 
rebalance or, as it was initially called, the pivot. The first 
is, do we need it? Do we need a rebalance to Asia? The second 
is, what is it as the administration has articulated it? And 
the third is, can it achieve its goals as the administration 
has outlined them?
    I would say that actually I am agnostic on the first 
question. I think that if we phrase this in the sense of 
returning to Asia, it is a misnomer. We have 325,000 troops in 
PACOM [Pacific Command] that have never been out of the region. 
We do hundreds of exercises a year. We have dozens of visits 
throughout the region for a year--throughout the region every 
year. So, it is not that the United States has been absent.
    The question is, what are we trying to do in Asia today in 
the Asia-Pacific region? And also, what are the trends? Do the 
trends indicate that we need some type of rebalancing to the 
region?
    Well, in order to answer that in terms of the trends, we 
look at the broader security equation, even though the 
administration will talk about this being a whole-of-government 
approach--that there is an economic component; there is a 
diplomatic component; and that there is a security component.
    The administration says repeatedly that this rebalance is 
not about China. It is about the region as a whole. And in 
general, I would argue that is the right approach. What we need 
to think about is what type of Asia do we want to see? What 
type of Asia is best for United States' interests, for the 
interests of our friends and allies in the region, and for 
Asians in the region?
    But if it is not about China, then what exactly is the 
rebalancing for if the security component is the main part that 
our friends and allies in the region are looking towards? There 
is, I would argue, on the administration's part a lack of 
clarity on what it is trying to achieve. It says it is not 
about China, and yet there is a high component or heavy 
component committed to rebalancing our security forces in the 
region. It is a traditional question, I would argue, of ends 
and means.
    If you talk to our friends in the region--I know, Mr. 
Chairman and members of the committee, you do that repeatedly 
through visits--they themselves obviously are concerned about 
the rise of China. They are concerned that as China has become 
stronger, it has become more assertive. They are concerned 
about their particular sets of territorial disputes and other 
issues in which they feel that there is little chance for each 
of them alone to resolve these on terms that would be most 
favorable to them.
    Therefore, what we see over the past several years is an 
increasing tendency on the part of friends and allies to look 
to the United States for backup and support. In part, they do 
this because the administration has stated that it is 
rebalancing, it is re-engaged, it is back in Asia. And yet when 
we come down to the specifics that concern them and interest 
them, the United States often takes a pass.
    We can look at the frustration that the Philippines feels, 
the frustration that Japan feels over territorial issues in 
both the South and East China Seas. And they wonder, as 
actually a Philippines senator publicly questioned during last 
year's problems over the Scarborough Shoals, ``What is the use 
of the alliance with the United States if it will not back us 
up when we need it?''
    Now, that is not, I would argue, the same thing as to say 
that we should be involved in the territorial disputes between 
two nations. But it points out the rhetorical slippage between 
what the United States government is saying and what its 
actions on the ground actually are. That is the lack of clarity 
that I would argue causes problems in terms of understanding 
what this rebalance is supposed to do and whether or not we can 
redo it.
    Let me turn to the last few points. I mention, Mr. 
Chairman, that my clock is not running, so I do not know how 
long I have talked nor how much more time I have. So I will 
just take a few minutes and you can cut me off at any time, 
sir.
    What is the rebalance? A lot of us have written and talked 
about the fact that it does seem to be more rhetorical than 
substantive. If you look at the base of it, there is very 
little change overall in the U.S. security posture at whatever 
end point this rebalance would give. There is almost no change 
in the end-point ground strength. We are not going to be 
increasing Marines. We are not going to be increasing the Army.
    In terms of the Navy, Secretary Panetta at the Shangri-La 
Dialogue in 2012 talked about ultimately shifting 60 percent of 
U.S. global naval assets to the region. The truth is, we are 
almost already there. We have over 50 percent in terms of 
everything from carriers, cruisers, subs and the like, and of 
course, Admiral Roughead knows that far better than I. It is 
not a substantive change that would cause the calculation on 
the security end, I would argue, of anyone in the region to 
think that this is some sort of new era of United States 
security presence in the region.
    If it is just, then, rhetorical, how can the United States 
back up what it is saying it wants to do in terms of being more 
present? The administration, again, will talk about a whole-of-
government approach; that the President, and rightfully so, has 
gone to the East Asian summit; that we have now made TPP, the 
Trans-Pacific Partnership, a major part of our economic 
engagement with the region. And all of that is appropriate and 
all of that is right.
    But the rebalancing from a security perspective, which is 
what gets the most attention in Asia, is actually not all that 
significant.
    So either we are going to do something far more than what 
the administration has already laid out in its plans in order 
to change our presence in the region, or what we are talking 
about is just nibbling around the edges.
    And then, finally, sir, let me question can it achieve its 
goals?
    Well, I think that that bumps us back to the first 
question: What are those goals? Should the United States be a 
permanent balancer in the region, or do we want ultimately to 
hand off security concerns to our allies, and have them deal 
with it?
    Do we want in some way to oppose the rise of China? Do we 
want to counter the rise of China? If not, then why do we need 
to increase our security forces?
    How is sequester and the Budget Control Act going to affect 
the ability of the United States not only to do what the 
administration ostensibly hopes, but to do what we are already 
doing today? That is a question that has not been answered.
    If I could sum it up, I think that the major security 
challenge we face in Asia today is a simple one. It is a--if I 
could phrase it this way, it is a broken windows theory. There 
is no one that I have talked to in Asia who truly fears some 
major conflict breaking out tomorrow, some type of regional 
systemic war.
    What they fear, though, is that the environment in which 
they operate today, the environment that they know and they 
understand, is slowly slipping away; it is slowly degrading. It 
has broken windows. And if you accept a broken window on one 
block, you'll accept a broken window on another block. That is 
where the influence of the United States is most important, in 
stressing that we will not passively sit by while the security 
environment degrades for the worse and then raises significant 
questions about stability, insecurity and the potential for 
conflict.
    So I think that the administration, sir, finally, needs to 
do just simply three things. It needs to more clearly 
articulate the rationale behind the rebalance and the goals, 
which I would argue it has not done.
    Number two, it does need to publicly address how both BCA 
[Budget Control Act] and sequestration will affect our ability 
to do what we are doing today and what they hope to do in the 
future.
    And then, finally, there needs to be a larger articulation 
of a U.S. strategy in the Asia-Pacific, what role the United 
States will be playing in 20 years or 25 years, what role we 
expect our allies to play, and whether we are able to do it in 
a world in which we are rapidly cutting our defense 
capabilities today.
    Thank you very much, sir. I look forward to your questions.
    [The prepared statement of Dr. Auslin can be found in the 
Appendix on page 46.]
    The Chairman. Thank you.
    Dr. Cronin.

 STATEMENT OF DR. PATRICK M. CRONIN, SENIOR ADVISOR AND SENIOR 
    DIRECTOR OF THE ASIA PROGRAM, CENTER FOR A NEW AMERICAN 
                            SECURITY

    Dr. Cronin. Mr. Chairman, Ranking Member Smith and other 
distinguished members of the committee, I am deeply honored by 
this opportunity to testify on the trenchant matter of 
rebalancing to the Asia-Pacific region.
    It is in our vital interest to use the past few years as a 
springboard for widening and deepening our engagement in what 
is likely to be the most important region of this century.
    If we move intelligently and persistently to leverage our 
considerable power to mold the rising and dynamic Indo-Pacific 
region, then we can preserve and adapt an inclusive rules-based 
international community that is fundamental to the preservation 
of freedom, peace and prosperity.
    But if we falter in our purpose, if we divert from our 
long-term strategic interest, then fissures and flashpoints 
that today seem manageable may one day overwhelm our capacity 
to deal with them.
    Let me describe in brief what I think rebalancing is. The 
administration is seeking to shift from war to peace, although 
taking care not to exit so swiftly that it might jeopardize 
future stability and with it perceptions of American 
resoluteness.
    Rebalancing is about providing a strategic challenge to 
China, but not containing China. Long-term U.S. presence will 
help counter any tendency to steer a re-emerging China into an 
aggressive hegemon, but stepped-up cooperation with China will 
seek to provide sufficient strategic reassurance to dampen 
unnecessary competition.
    America will be rebalancing to Asia with Europe and the 
rest of the world, not away from Europe and the rest of the 
world. The United States will pivot within Asia as well, away 
from an almost exclusive concentration on Northeast Asia, and 
toward a much wider network of contacts, especially in 
Southeast Asia.
    Part of the rebalancing will include moving from mostly 
bilateralism to greater multilateralism, especially by 
embracing ASEAN-centered [Association of Southeast Asian 
Nations] institutions. This requires long patience, understand, 
given the region's multilateral security architecture is badly 
lagging the challenges of the region.
    Rebalancing also means building a bridge between the 
confluence of two oceans, the Indian and Pacific, strengthening 
ties between India and East Asia and embracing reform-minded 
change in a government like that of Myanmar.
    And, finally, rebalancing means economic and diplomatic 
power, not just military might.
    Comprehensive power is vital, especially in the context of 
those who would reduce America's influence in the region to 
defense alone. Even so, I recognize military power is the main 
instrument of insurance. This mostly involves retaining 
America's strong existing regional military presence. It also 
means widening the scope for engagement, a concept that is 
captured by the phrase ``geographically distributed, 
operationally resilient and politically sustainable.''
    So let me turn briefly to my guiding principles and 
recommendations. In my lengthy written testimony, I talk about 
the three military missions of deterrence, and countering 
coercive diplomacy. Those are the short-term, everyday needs 
that we are facing right now.
    And then, over the longer term, we have this growing 
challenge of countering anti-access and area-denial 
capabilities. Those are very centrally military challenges.
    But I have got some broader guiding principles, the first 
of which is that undergirding our policy is that the long-term 
shift in economic, political and military power to the Indo-
Pacific region should give urgency to our short- and mid-term 
decisions. We have a limited window of opportunity to influence 
this region.
    The second guiding principle is that countering coercive 
diplomacy, averting crises and de-escalating them when they 
occur, encountering growing A2AD [anti-access area-denial] 
capabilities over time, are at the core of our military mission 
in the region.
    The third principle to guide our policy is to recognize 
that this enterprise is bigger than any one country. We will 
increasingly have to work with allies and partners. 
Multilateral security institutions in the Asia-Pacific region 
are growing by baby steps.
    ASEAN provides legitimacy more than effectiveness. We need 
to build up that effectiveness by working with like-minded 
states and others in the region so that we can mature these 
institutions.
    And as Asian capabilities continue to grow, there should be 
more opportunities for collaboration, for interoperability, for 
real effectiveness and burden sharing. In supporting regional 
cooperation, we should increasingly draw on what we have called 
the emerging Asian power web, the constellation of inter-Asian 
security relations that are being built at a quickening pace. 
These are the building blocks for helping Asian nations better 
defend themselves, to help them to help themselves, but also to 
help us have interoperability with these countries.
    A fifth guiding principle is for the United States to 
constantly put forward its positive vision for an inclusive, 
rules-based region to advance peace, freedom and prosperity for 
all.
    And, finally, our policy rebalancing should be guided by a 
quest for achieving a comprehensive economic, diplomatic and 
military power.
    So, what about recommendations that we can achieve, 
essentially low-cost, cooperative security in the immediate 
future?
    Well, here are 10 important steps that we might consider.
    One, accelerate an official review of the U.S.-Japan 
Defense Guidelines. We need a common strategic approach to 
countering Chinese coercive diplomacy in the short term and 
countering Chinese A2AD anti-access/area-denial capabilities in 
the long run.
    Two, we need to staunch the growing gap in South Korea-
Japan perceptions through practical defense cooperation that we 
can help facilitate. For instance, we might propose navy-to-
navy talks on missiles as a way to get at some very, very 
difficult issues, but where there is some common interest.
    Three, we need to initiate a U.S.-ROK [Republic of Korea] 
review of the alliance's North Korean strategy to help thwart 
the deployment of nuclear-tipped missiles and lethal uses of 
force.
    Four, we need to fully test China's tolerance for 
pressuring North Korea from deploying or proliferating nuclear 
weapons and their means of delivery.
    Fifth, we need to help Taiwan avoid being coerced into 
making unfair concessions to mainland China. I just returned 
from Taiwan. They are being squeezed more and more, every day.
    Sixth, prevent the Philippines from being isolated by 
forging a tougher ASEAN diplomatic line and advancing the air 
and maritime capabilities of the Philippines.
    Seventh, propose at the ASEAN Defense Ministers' Meeting-
Plus meeting in Brunei next month, where Secretary Hagel will 
be, steps to reinforce a multilateral approach toward both 
maritime domain awareness and HADR, humanitarian assistance/
disaster relief, capabilities to deal with inevitable 
disasters.
    Eight, ensure sufficient support to enable more, not fewer, 
exercises with India and allies and partners on the other side 
of the Strait of Malacca.
    Nine, encourage historic reforms underway in Myanmar, while 
guarding against a future military intervention, especially as 
they approach the 2015 election.
    And, ten, leverage the emerging Asian power web by 
supporting organic and natural trends for greater inter-Asian 
bilateral ties with countries that really have military 
capabilities, such as Australia and Indonesia, Australia and 
Japan, India and Vietnam among others.
    Thank you very much.
    [The prepared statement of Dr. Cronin can be found in the 
Appendix on page 65.]
    The Chairman. Thank you.
    Admiral.

     STATEMENT OF ADM GARY ROUGHEAD, USN (RET.), ANNENBERG 
       DISTINGUISHED VISITING FELLOW, HOOVER INSTITUTION

    Admiral Roughead. Mr. Chairman, members of the committee, 
it is a privilege to be with you today to talk about the Asia-
Pacific region and particularly the strategic implications of 
rebalancing.
    This is a region that has been on my mind for a long time. 
I have commanded at sea in the Pacific. I have served twice at 
the U.S. Pacific Command. I have commanded the U.S. Pacific 
Fleet. And as the Chief of Naval Operations, when I issued the 
maritime strategy in 2007, Asia was prominent in that strategy.
    When I think about the region, to me it is the Pacific 
Ocean, Oceania, the Indian Ocean and the increasingly important 
trade routes into Africa that will feed the economies of Asia.
    And in the mid-term, the opening of the Arctic trade routes 
that will become increasingly important to the Asian economy.
    So it really is quite an area that we are talking about. So 
the importance of rebalancing and refocusing, whatever word is 
used, it, to me, is an imperative.
    But I think that our approach in rebalancing must be 
strategic and not superficial. It must be substantive and not 
marginal. It must be realistic and not an illusion. It must be 
optimistic and not pessimistic.
    The real power of Asia is the economy. And so, as we look 
at our strategy as a nation going forward, economic 
initiatives, trade initiatives need to be there, in the 
forefront.
    But the fact of the matter is that security in Asia 
underpins the rapid growth that we are seeing. And all in 
Asia--and I say all in Asia--see the United States and 
particularly the United States Armed Forces as the stabilizing 
force.
    And so, if we look at it, rebalancing is not the strategic 
objective. The strategic objective for us in Asia is to 
maintain that stability and to not allow one country to 
dominate in Asia.
    And in order to do that, we have to maintain American 
influence and credibility. And that means relevant, competent 
ready military power present in the region and ready power from 
beyond that can rapidly reinforce and respond to events there. 
And that means, basically, the Navy and the Air Force. And this 
comes at a challenging time, budgetarily, operationally, and 
politically.
    But I think our budgets, as we put them forth, must reflect 
that strategic priority. And we have to put in place the 
appropriate facilities and activities. I think that, as we look 
at how we resource our military into the future, we have to 
depart from equitable shares of budget. It does not mean that 
any service is valued less. It does not mean that we are 
walking away from jointness, because jointness is best achieved 
by effective budgets, not equitable budgets.
    I would also say that, as we look at the nature of 
technology and military equipment, we can't simply look at 
individual line items. We have to look at the totality of what 
we are trying to achieve, because an uninformed or even a well-
intentioned move on one line item may cause that house of cards 
to be less effective and come tumbling down.
    I think what the Navy and the Air Force have done in the 
Air-Sea Battle is a positive step. I think it is paying off. 
And I would also say that the other thing that should be done 
is to bring the service chiefs more into the acquisition 
process from which they have been removed for the last couple 
of decades.
    It will be important, going forward, to maintain in this 
country a robust research and development program and the 
funding to support it. And, as we look to the future, we have 
to ensure that part of our considerations mean that we maintain 
a viable, flexible, and robust industrial base.
    The vastness of the Asia-Pacific region, where we enjoy 
absolute air and maritime superiority, is going to require a 
new look at increased investments in unmanned systems. We have 
learned a lot in Iraq and Afghanistan with regard to unmanned 
systems. But I will tell you that the Pacific is very 
different. It is not as benign. It will be more challenging. 
And, accordingly, I believe that as we look at our future--and 
we really are in the lead in this rapidly developing area--we 
should look at how we do it, what our priorities are, what our 
processes are, and we have to have a greater sense of urgency 
as we move forward with unmanned.
    I will tell you that, having recently come back from the 
region--and I have been there six times in the last, about 14 
months--our defense budgets are watched in Asia more closely 
than they are watched on the American street. People are 
questioning whether or not we are serious about it. And the 
actions are going to speak louder than any words going forward.
    I would also say that, while we tend to focus on 
procurement and technology, near-term readiness and the near-
term readiness budget is extraordinarily important. One can 
undergo short, rare disruptions to the near-term readiness 
budget. But I would submit that we are beyond that point now. I 
really do believe that the actions that have had to be taken 
are beginning to erode, not just the short-term readiness, but 
also will take its toll on long-term readiness and it will be 
more costly and longer to dig out than had we stayed in a more 
disciplined regime.
    As my colleagues have mentioned, any time you talk of Asia, 
China looms large. And our relationship with China is going to 
determine the strategic shape and the tenor of the Asia-Pacific 
region. China's power is economic. It is not military--yet. 
What the PLA, the People's Liberation Army, and the People's 
Liberation Navy have done over the last few years does not 
surprise me. It is what rising economies and rising nations 
dependent on trade do. You can go back in history, Spain, 
England, the United States, Portugal, Holland--it is the 
pattern.
    In China, the money is there. The strategy is there. And I 
think, equally important, is the coupling of that budget to a 
strategy and the coupling of an industrial policy to the 
strategy, which is making it a very effective initiative.
    Our relationship with China requires cooperation on 
economics and trade. And the militaries, I believe, will 
cooperate where our interests intersect. And we see that in 
counter-piracy operations, humanitarian assistance. I think we 
should welcome those opportunities for cooperation confidently 
and expand them when it is in our interest to do so.
    We will continue to compete with China militarily in the 
coming years. That is what militaries do, particularly 
militaries that are rising. China is doing it well. But I would 
submit that they see more than just a U.S.-China competition. 
If you look at some of their recent strategic writings, they 
see competition with Russia, with India, and with some of the 
countries that surround them.
    China's future is extraordinarily complex. And I would say 
that it is still uncertain. So it is important that we refocus, 
rebalance. And I will tell you that all in the region are 
watching. And what they are watching for is whether there was a 
coherent approach going forward that we have the structure and 
the discipline and the predictability in how we are backing up 
this initiative to reemphasize the Asia-Pacific region.
    If we can achieve that structure, coherency, and stability, 
then the United States will remain the stabilizing force in 
Asia, and we will achieve our strategic objectives and we will 
assure our prosperity well into the future. But if we don't do 
that, we are going to cede the region to others and our place 
in the world.
    Thank you.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 83.]
    The Chairman. Thank you.
    Dr. Shinn.

STATEMENT OF DR. JAMES SHINN, LECTURER, SCHOOL OF ENGINEERING, 
                      PRINCETON UNIVERSITY

    Dr. Shinn. Mr. Chairman, Ranking Member Smith, members of 
the committee, thanks for having us.
    I was chatting with Admiral Roughead before the hearing 
about how much more pleasant it is to be here as a private 
citizen than as the Pentagon representative in the hot seat. 
But this chair feels considerably cooler than I remember it 
from a couple of years ago.
    So, very briefly, I would submit for you three points on 
the topic of the hearing. First, that the rebalancing with the 
pivot, or whatever we call it, is a good idea. Secondly, that 
announcing that strategy but not applying enough resources to 
it is an extremely bad idea for reasons that we can discuss. 
And then, third, just how bad an idea it is depends upon the 
difference between the resources required to implement that 
strategy and the resources that are likely to emerge from the 
debate on sequestration and then the long-term QDR [Quadrennial 
Defense Review] recommendations for the Pacific.
    So, very briefly, the first point, as Dr. Auslin said, 
there is a lot of consistency between the rebalancing logic and 
the Bush administration and, for the that matter, the latter 
part of the Clinton administration, and because the underlying 
logic is the same, the simple logic being that we hope that 
China has a peaceful rise, but that the purpose of forward-
deployed forces and our alliance network is to deter China and 
its allies from any kind of aggressive, military expansion. 
Now, that is the logic of what you might call ``conditional 
engagement'' or ``conditional containment.'' None of the 
phrases are particularly apt. But, at the end of the day, that 
is the test.
    The second point, and I think we have heard references to 
this from all previous three testimonies, to put forth a 
strategy of rebalancing to Asia and not follow through with the 
resources is a really bad idea. You may want to get into the 
reasons for this, for why there may be a gap between the 
resources required to implement a conditional engagement 
strategy, and what we can actually put out into the field.
    But, at the end of the day, without strong guidance from 
the Secretary of Defense and from the White House, the natural 
inertia of the services and the natural conservatism of the 
Pentagon to redeploy resources in a radical way will operate 
against achieving that. And you are more familiar than I am 
with the parameters of sequestration and the effect this could 
have on the ability to put the resources in place.
    So I would just add that when I was at the CIA [Central 
Intelligence Agency], I was a fairly close observer of Chinese 
decisionmakers, both public and think tank observers. And there 
has been a long line of argument within Chinese decisionmaking 
that, ultimately, the U.S. will have to withdraw from its 
forward posture in Asia due to fiscal constraints.
    This was a line of argument that became particularly common 
in Beijing around the financial crisis. But it has continued up 
to the present day. And, as Admiral Roughead said, budgetary 
decisions here are watched more carefully in Asia than, 
perhaps, they are in New York. And they are watched 
particularly carefully in Beijing.
    So the third and final point, and I make this in all 
humility since I don't have the answer, but I suspect that this 
hearing and your deliberations are aimed, in part, to help 
answer this. The third question is, how many resources are 
actually required to support a rebalancing strategy?
    Much of the debate over whether 1,000 Marines to Australia 
or a couple of ships to Singapore or wherever you put the MAGTF 
[Marine Air-Ground Task Force], the Marine Forces, really begs 
the underlying question, which I think is the important one, 
which is how many resources are really required to deter 
Chinese military expansion and to increase the probability that 
we have a peaceful rise?
    You know, I would submit to you that there are probably two 
ways to get at that question. And you may have already received 
answers to these in classified briefings or in another 
engagement with our former colleagues at the Pentagon or the 
Intelligence Community that answer this. And if that has been 
the case, then you could ignore this.
    But it seems to me that the first point is that we have a 
great deal of military training, a great deal of military 
simulations, a great deal of military exercises across a whole 
range of conflicts of different intensity that do provide us 
and should provide you with enough empirical evidence to judge 
just how effective our forces and the forces of our allies in 
the region will be faced with a variety of military expansion 
activities or provocations from the PRC [People's Republic of 
China] and its allies, whether it is the area-denial or whether 
it is Air-Sea Battle. There are a lot of ways to get at this, 
but it is a knowable problem.
    And I think the second part, the harder part of that 
question that you publicly want to have answered for you is 
continued analysis of the calculus of the decisionmakers in 
China themselves. How do they view the deterrent effect of U.S. 
and our allies in East Asia? How do they weigh the possible 
changes in the composition and the size of those forces over 
time, in terms of their calculus?
    And I think if you combine those two with the kind of 
frank, mil-to-mil communication, the kind of official 
discourse, trying to elicit information on Chinese intent as 
well as capability, that this committee and, for that matter 
the Obama administration, would go a long way, I think, to 
assessing just how big the risk is posed by setting forth the 
strategy of rebalancing but failing to apply the resources 
necessary to execute it.
    [The prepared statement of Dr. Shinn can be found in the 
Appendix on page 93.]
    The Chairman. Thank you very much.
    Many nations in the region are concerned about the military 
buildup of certain countries such as China and North Korea. 
China's military modernization has continued unabated for 10 
years while North Korea recently announced that they will 
restart their nuclear weapons program.
    We are tending to see increased nationalism and military 
spending by traditional allies, as well. Yet, history has 
taught us that provocative actions, hawkish rhetoric and 
political nationalism can easily lead to misunderstandings and 
armed conflict. How would you assess the threat of a regional 
arms race and the militarization of the region? How would this 
affect regional and global political and economic stability? 
And will the U.S. decision to rebalance to the region tend to 
accelerate or dampen further militarization?
    To all of you.
    Admiral Roughead. First, Mr. Chairman, I would say that 
the--Asia is becoming the largest market for arms, high-
technology systems. You talked about the growth in China, and 
we have been seeing that. But I think that you will continue to 
see sophistication of weapons systems and acquisition of those 
weapons systems as we go forward.
    I think the greatest risk--and my sense is, as my 
colleagues have also mentioned, that the Asian engine does not 
want a conflict, because that would be extraordinarily 
disruptive.
    Tensions will remain. My greatest concern is for a misstep, 
particularly in the areas where there are maritime disputes. I 
think, particularly in Northeast Asia that has the highest 
probability of happening. And the consequences, because of the 
sophistication of their militaries, because of the historical 
animosity that exists, that that is something that must be very 
carefully watched, and we should influence in every way we can 
to have protocols, policies, procedures in place so that these 
tensions can be defused.
    I really do believe, as I said in my statement, that it is 
the U.S. presence, credible U.S. presence, and the 
relationships that we have with the countries in the region and 
the current trust that they have in our ability to be an honest 
broker and a mediator that that is something that is 
extraordinarily important.
    If the countries in the region do not sense that we are 
there, that we are willing to remain engaged, I think the 
probability of misstep increases markedly.
    The Chairman. Yes?
    Dr. Shinn. To your question, Mr. Chairman, about an arms 
race, I think that if you look closely at the information that 
I think was provided this committee--just recently you had a 
hearing on the China military power report, which is an 
interesting document; but remarkably consistent over time from 
when I worked on it in the intelligence world and then when my 
office prepared it at the Pentagon in the second Bush 
administration.
    And I think what probably struck all of you when you look 
at this, this report, the chairman himself has seen a number of 
these over the years, is just how sustained the expenditure is 
over time in the PRC. And it is like it is hard to make the 
case that this is a response to a perceived arms race from the 
outside. I mean, this has been going on for decades. So I think 
it would be--I think it is very hard to attribute this to what 
academics call a security dilemma. I think there is an internal 
logic and a long-term calculus in the PRC for their 
conventional, and for that matter their nuclear policy buildup, 
just as we see a persistent growth in the threats presented by 
North Korea and, for that matter, by Pakistan, who are, after 
all, the closest allies China has in the region and are both 
formal treaty allies to the PRC.
    Dr. Auslin. Mr. Chairman, to your question, I think we 
should actually be very worried and should ask ourselves a 
question, why is the region, everyone who can afford it, buying 
more weapons? What does that say, that as Asia has gotten far 
richer over the past two decades, it has also become more 
democratic; hundreds of millions of people in countries ranging 
from China to Vietnam, Southeast Asia, India throughout the 
entire region have been lifted out of poverty, the middle class 
has grown. At the same time that that has happened, every 
nation that can afford it is buying more weapons.
    Now, they also well understand China, probably better than 
we do--their neighbor. They know that when the Chinese 
government began this buildup, which is on the range of 20 
years ago actually, it was a 1950s army at best. They had no 
navy. They had no navy that could sail out far. It was a 
coastal navy. It was a coastal defense force. They had no air 
force that could fly out of sight of land. They had an army 
that was basically 1950s surplus Mao-era material.
    So no one I think would have initially begrudged--if I can 
put it that way--the Chinese building up a modernized defense 
force. Every nation does that. They, however, clearly 
understand something that gets right at the heart of the debate 
here in the United States, which is, what is China's intent.
    Now, none of us know that intent. I certainly don't know 
that intent.
    Is China intending ultimately to become, not only assertive 
but aggressive? Is it--have a goal at some point of 
unilaterally changing borders or settling the historical 
disputes, that Admiral Roughead indicated or mentioned, in its 
favor and not in the type of peaceful, benign negotiating way 
that we would like?
    So the intent question, I think, Mr. Chairman, gets very 
much to your question, what does the militarization and the 
regional arms race mean? Why is Asia doing this? What does it 
say about the tenor of the overall geostrategic equilibrium in 
Asia that the richest or most dynamic region on Earth is also 
the one where you see the greatest investment in arms?
    Now, for the United States I think we have to ask then a 
secondary question. I think--and I will be honest, I am not in 
government. I think it is a very hard question we need to ask.
    It is a variant of the credibility question, which is to 
say, what do our Asian partners--first of all, our allies, 
secondly those countries we work with, and third those 
countries that we have friendly relations with--what do they 
really expect from the United States in a worst-case scenario?
    Now, we can, I think, intuit some of this by looking at how 
Japan and the Philippines have reacted over the past 18 months 
to the stepped up confrontational face-to-face incidents with 
China over the territorial issues.
    When we talk about the United States as a security 
guarantor, you know, we use insurance language; you know, we 
are the underwriter of security. It is an insurance policy that 
the United States is in the region. And I have absolutely no 
disagreements with Admiral Roughead that we are a stabilizing 
influence. But at the end of the day, what does that really 
mean? Does that mean that we would step in and stop a regional 
war from happening? We have treaty commitments that say that we 
would basically undertake that role.
    But there is, I would submit, a huge terrain between the 
types of incidents that we see happening daily in the Asia-
Pacific and the type of full-out war for which our 1950s-era 
security treaties and alliances were signed.
    So what role do they truly expect us to play? That we step 
in at the last second--to use a very American expression, the 
cavalry rides in? Do they want us early on in this process 
where we have indicated we won't be doing it?
    It is that uncertainty and, perhaps I would argue in some 
degree our unclarity, as to ultimately what role we will play 
that fuels the very question that you asked, sir, which is the 
militarization and the arms race.
    If there were no questions about this, then I don't think 
you would see these nations buying as expensive and 
sophisticated and modernized weapons systems as they could.
    So for us I think it is to go back to a first principles 
question and try to understand the role that we play to help 
them have clarity on this issue.
    Thank you.
    Dr. Cronin. Mr. Chairman, I have been looking at this 
military balance for more than 30 years, and I think it is fair 
to say that Asia is moving from an arms walk to an arms trot.
    There are particular systems such as undersea systems, also 
paramilitary systems--coast guard forces, civilian law 
enforcement forces--that have to be watched, as well as cyber 
and space that need to be integrated into our thinking about 
the long-term defense. So we have to consider the balance 
between our near-term readiness that Admiral Roughead talked 
about, which is indeed important, to make sure that we can run 
the long race as well; that we can invest in the systems that 
we are going to need to counter this much more complex set of 
systems that we summarize as anti-access and area-denial 
capabilities.
    And we are operating in this middle gray zone of 
essentially confrontation, coercive diplomacy that makes it 
very difficult. And perceptions will be shifting. Budgets will 
be shifting on the basis of how well the U.S. plays this role.
    To answer Dr. Auslin's question, ``Why Asia is arms 
trotting?'' The answer is because not only are their economies 
larger, but they are hedging. They are hedging a rising China 
and its capabilities. And they are hedging also, to varying 
degrees, because they are not sure that America will have the 
staying power and commitment.
    So it is very important that everything we do balances the 
near term with the long term, reinforces our long-standing 
commitments, projects a positive, inclusive vision for all 
countries in the region to try to dampen down unnecessary arms 
competition, but that we don't give up our very strong, capable 
military preeminence.
    Thank you.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Just a quick followup on that point. I mean, it 
occurs to me that the ``arms trot,'' as you describe in Asia, 
has probably less to do with us and much more to do with where 
those countries are at. They have grown economically into a 
position to be able to afford this.
    It is not--I wouldn't put it so much on whether or not they 
think our commitment is any less now than it was in the 1960s 
or 1970s. They are just in a better position to not be 
completely vulnerable and reliant on somebody else. And just 
about 100 out of 100 countries in that situation would choose 
the path that makes them less completely reliant on somebody 
else. And that is just sort of peer logic. And you add that in 
with the fact, you know, the territorial disputes that are, you 
know, not just between China and other countries, but Japan and 
South Korea, Japan and the Philippines. I mean, there are a lot 
of different things that they are sort of disputing over in 
terms of primarily land, mineral rights and all of that. And 
they would prefer to be at least in some position to defend 
themselves.
    Now, I continue to be optimistic, as I look at it, that 
what they have in common over there, that the economic growth, 
that the lack of actual conflict that has arisen out of this 
points to the fact that it will, long term, be more peaceful 
than I think some of the more paranoid among us might think. 
And I think that is the perspective that we should take as we 
engage is primarily on the diplomatic side, to be someone who 
can work with our economic power, with our soft power, with our 
diplomacy to work out some of these conflicts.
    My question is, you know, what risk do you see of some of 
these lower-level conflicts? Obviously, we know about North 
Korea and South Korea, and we can analyze where that might go. 
And I don't think anybody knows. And there is clearly a risk 
there. But putting that one aside for the moment, when you look 
at some of the territorial disputes that exist between China 
and the Philippines and Vietnam and Japan; the territorial 
disputes between Japan and South Korea; obviously the ongoing 
India-Pakistan issue; what risks do you see out of any of those 
that there would be a real conflict arise that would require 
military action, either locally or by us? Or is it more likely 
that these things will be able to be resolved in a more 
diplomatic way?
    And all four of you don't have to answer, because I want to 
get to some of the other questions.
    Admiral Roughead. In my mind, the area that I think is the 
most sensitive right now, Congressman Smith, is the area of the 
Senkaku-Diaoyutai Islands between China and Japan. The activity 
that is taking place there is perhaps the most aggressive. And 
as I mentioned before, the problem is that there are no means 
and methods to share perspectives, to defuse, to de-escalate. 
So if you get a clash, you don't have the mechanisms to bring 
it down. That is the area that I think about the most.
    Mr. Smith. And just quickly, now, what mechanisms do you 
think we should try to be put in place so that we could have 
that option?
    Admiral Roughead. Well, first off, it is between China and 
Japan.
    Mr. Smith. Right.
    Admiral Roughead. But I think that we can encourage 
mechanisms that allow at the tactical level, at the operational 
level, and even at the strategic level, for information to be 
shared; that there should be communication protocols that are 
used to clarify activities and intentions. That is not 
happening and I think that is something that really needs to be 
done.
    Mr. Smith. Okay. Dr. Cronin, do you want to----
    Dr. Cronin. Yes, Representative Smith, thank you. To your 
first point, the trend that is driving Asian militaries has a 
lot to do with their own economic success, absolutely. We want 
to keep pushing that economic success. These countries should 
be, first and foremost, responsible for their self-defense. So 
this is a positive trend, I agree with you, in general. It is 
not necessarily a nefarious trend by any means.
    The risks of maritime disputes growing up, I agree with 
Admiral Roughead, that there is no doubt the East China Sea is 
the more serious of the two because you are dealing with two 
large militarily capable countries in China and Japan, and we 
have a very hard treaty commitment with Japan.
    China thought that it could get away with what it did to 
the Philippines last spring in Scarborough Shoal, namely that 
they could use extended coercive diplomacy on Washington to 
pressure our ally in Manila to back off out of Scarborough 
Shoal, and then China didn't back off. And they thought maybe 
they could do this with Japan if they could make our Japanese 
ally appear to be the irresponsible and reckless power.
    We mustn't let that happen. That is not war. That is this 
coercive diplomacy, gray-zone area. But there are some very 
serious triggers here. If you look at the latest defense of 
Japan white paper, the Japanese Ministry of Defense for the 
very first time outlines what is in effect a four-step 
doctrine. And it says that if the Japanese islands are 
occupied, force will have to be used.
    So we have to manage this very closely. And I think we hug 
our Japanese ally closely. If we work with China and try to 
come up with risk reduction measures, we can all work this out. 
This is not going to lead to war, but we have to be present and 
actively engaged.
    Thank you.
    Mr. Smith. Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to thank you and the ranking member for having this 
hearing. It would be very easy for us to put all the grease on 
the squeaky wheels, and you have refused to do that, and look 
at a problem that I think we need to be addressing.
    And I think as you look at all four of you, who bring such 
great expertise to this committee, you would probably agree 
with Admiral Roughead when he said that our armed forces are 
probably the largest stabilizing factor in this region. And the 
success of that stabilizing factor depends on their capability. 
And the capability we are looking at primarily is going to be 
Navy and Air Force.
    Admiral, my question for you, if you would take a couple 
minutes to respond to this, would be, what additional 
capabilities do we need? Do we need more of what we have? Do we 
need different capabilities, more modern capabilities? Do we 
need to look at basing posture options? What do you think we 
need?
    And then Dr. Auslin, if you could address the Air Force 
specifically and what you believe General Carlisle needs as the 
commander of the Pacific Air Forces. Does he have what he 
needs? Or does he need something different?
    And Admiral, if you would go first.
    Admiral Roughead. Thank you, Mr. Forbes. And I would say 
the--we have to look at the vastness of the region. And you can 
talk about capabilities, but capacity in the Pacific matters a 
lot. That is why I believe that a very, very thoughtful 
approach to our unmanned strategy in the Pacific, both air and 
sub-surface, is required because that will be the game-changer 
for the coming decades, in my view. And we have the lead in 
that technology and our operational experience. And we should 
jump on that and move as quickly as we possibly can.
    There is no question that we should look at our 
communication architectures that are in place because in the 
nature of high-end conflict in the Asia-Pacific region, that is 
where the initial battles are going to be fought. So how hard 
are they? How robust are they? How redundant are they? And so, 
the command and control and how we move forces I think is 
absolutely key.
    The other point I would say, getting to the capacity piece, 
is that we have to be seen in the region. We can't simply say 
we care a lot about it and it is very important to us. We have 
to be seen. And that is why I think the initiative to move the 
littoral combat ships into Southeast Asia is absolutely spot-
on. It is a perfect ship for that environment and the types of 
activities that will be there, but they have to be there in 
numbers. And that gives you an opportunity to be seen and that 
credibility goes up.
    And I am going to come back to near-term readiness, because 
that is the near-term resources that we use are what feed our 
ability to be out and about; maintain levels of readiness that 
allow us to be reliable and predictable when we are interacting 
in the region. And quite frankly, it is that near-term 
readiness money that, in my mind, does so much for our alliance 
relationships because it allows our militaries, not just with 
our allies, but also with like-minded partners, to do things 
together, whether it is, you know, some basic exercises or 
perhaps even some higher-end ones--humanitarian assistance, 
counter-piracy.
    It is the near-term money that gives us the means to do 
that; gives us the reliable equipment. And quite frankly, takes 
a lot of work off the backs of the young men and women who are 
out there doing the work.
    Mr. Forbes. Thank you.
    Dr. Auslin.
    Dr. Auslin. Representative, thank you.
    And I agree with, certainly with what Admiral Roughead 
mentioned in terms of the overall approach we are beginning to 
take on things like Air-Sea Battle.
    If you look at the Defense Strategic Guidance that the 
President released in January of 2012, which called for 
flexible approaches, leaner troops, a different style of 
engaging militarily with the world, while keeping the 
commitments that we have, I think implicit in that to a large 
degree was a greater reliance on air power than perhaps we have 
had a public discussion of.
    You know, it is an old phrase, but I think especially when 
you talk about, as Admiral Roughead mentioned, the vastness----
    Mr. Forbes. Doctor, I have only got 30 seconds.
    Dr. Auslin. Oh, I am sorry.
    Mr. Forbes. That is all right. It is just all the time I 
have got, so tell us what you can and then put the rest in the 
record.
    Dr. Auslin. Sure. Absolutely.
    I think what we need is a greater presence in terms of the 
tactical aircraft that our allies really think is the most 
important. If you look at the fact that we only have nine 
forward-based fighter squadrons in the region, it is a region 
in which you need to reach areas immediately and as quickly as 
possible. Air power allows you to do that, and allows I think 
the land-based capacity of carrying the types of weapons and 
munitions that would be required that give guarantees to our 
allies of our ability to intervene when necessary.
    So I would certainly say we need more of the F-35s when 
they are ready to be forward-based in the region, more than 
nine squadrons.
    We need the same with the unmanned, the remotely piloted 
aircraft that Admiral Roughead mentioned.
    And we need that phase zero presence to be increased. We 
need, if you would call, a little bit of air diplomacy to match 
the sea diplomacy and naval diplomacy that we have in the 
region, training and education and the like. Because every ally 
that we have wants to be able to cover their air domain----
    Mr. Forbes. And my time is up. Anything else, we would love 
to have you submit for the record.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being before us. I kind of 
chuckle a little when people keep talking about rebalance and 
pivoting to the Pacific. I am a Californian. So we think we 
have always been turned towards the Pacific. And certainly I am 
glad that one of you mentioned we have had 325,000 troops in 
the Pacific for quite a while now.
    So my first question is, with respect to your assessment of 
the United States-Chinese military-to-military engagement, 
because, as you know, and some of you as former military, that 
we work and we strive very hard with so many countries to have 
that. So my question is, can the military-to-military 
engagement with China be improved? How would you propose 
improving the value of such contacts?
    And this comes in the context of an appropriations 
amendment that we have on the House floor today that would 
prohibit participation by the People's Republic of China in 
joint U.S. military exercises.
    So whichever one of you want to take that?
    Admiral Roughead. I guess I am the former military, so I 
will do that.
    I really do believe that we have an opportunity to expand 
and enhance the mil-to-mil relationships with the PLA. The 
opportunities are there, as I believe that we will continue 
when our interests intersect to cooperate.
    I do encourage that we seek more opportunities to bring our 
operational forces together. I believe that we should expand 
some of the basic operational skill demonstrations.
    Our commanders and those on the ground are going to be 
very, very mindful of the technologies and the procedures and 
the processes that are key to us. But I think that we can do 
more. I believe there is a window currently to be able to do 
more.
    And I am very much in favor, for example, of the Chinese 
participation in the Rim of the Pacific exercise. I think that 
is a step forward.
    Now, China has to reciprocate. And they have to start 
bringing us into their activities as well.
    Ms. Sanchez. Yes?
    Dr. Shinn. If I could weigh in, very briefly, you know I 
would agree with, emphatically, with Admiral Roughead. I mean 
the--I think the more mil-to-mil exposure we have on both 
sides, the better.
    If you believe--I know this is an unorthodox view from a 
conservative Republican here, but if you believe that 
deterrence is the underlying strategy here, then an accurate 
assessment of your respective capabilities is an extremely 
important part of that. And who better than the respective 
militaries?
    I also think, from personal experience, that our senior 
military officers are thoughtful, cautious people. They don't 
need to be micromanaged, either by--you know, by OSD [Office of 
the Secretary of Defense] or, necessarily, I think a lot of 
oversight to do the right thing and to be careful of the risks 
associated with Chinese intelligence, which of course is very 
active.
    Ms. Sanchez. Thank you. My next question is about the role 
of the U.S. military in the event that something might happen 
in the East Sea or the South Sea, and I mention those names; I 
picked them very carefully. I represent the largest Vietnamese 
population outside of Vietnam in the world back in California. 
They would abhor calling the East Sea the East China Sea. I 
think that sort of tips the hand to a particular direction.
    But my real question is, what do you think the U.S. role 
would be if there would be a fight over some of these islands, 
a true fight; I mean maybe a military presence type of a 
situation.
    And I will leave, again, that open to whomever would like 
to answer it.
    Dr. Cronin. Representative Sanchez, thank you very much. 
Growing up in California, I share your view about the long-
standing importance of the Pacific to the country.
    And I am heading to Vietnam this weekend, as well as to 
Manila. And so it is very important that we signal clarity 
about our intention, not over whose sovereignty, but how 
sovereignty is decided. It is not decided through the arbitrary 
use of force.
    So any war, if you will, in inverted commas, that is likely 
to erupt in those seas would likely be very short. It is 
positional. It is coercive.
    So we have to be ready to think ahead, several steps ahead, 
about how we make sure that countries like Vietnam and the 
Philippines are not isolated.
    We have a treaty alliance with the Philippines. Of course 
we have just a growing partnership with Vietnam. We have to 
grow that partnership with Vietnam. We have to help the 
Philippines be in a better position to defend itself. And that 
means not signaling war will erupt if something happens, but 
rather that we are determined that no one country should 
unilaterally be allowed to use force to change the status quo 
over disputed areas.
    Ms. Sanchez. Thank you, Mr. Chairman. I appreciate.
    The Chairman. Thank you. Thank the lady for her comments.
    And the gentleman from Florida, Mr. Nugent, you are 
recognized for 5 minutes.
    Mr. Nugent. [Off mike.]
    I appreciate the comments made by the panel. It is 
obviously an interesting concept in regards to rebalancing. And 
some of the comments made the fact that we are not really sure 
on the clarity of the administration as to what that means. And 
I think that is what this hearing is all about is to try to 
clarify exactly what is the administration--what is the end-
game that the administration has in place? And I think it is 
important to our allies in that region to really have a 
comprehensive idea as to where we are in regards to helping 
them protect their interests as regional allies in the area.
    But just--and I am sure one of you or all of you could 
answer this--what do you see as the--and I think you may have 
touched on this, Admiral--but probably the two biggest 
flashpoints in that region that we could ultimately be drawn 
into, to protect or at least, as you said, try to get ahead of 
the issue, so you have a way to--you know, to add some 
stabilization to the area.
    What two areas do you see as the biggest flashpoints for 
us?
    Admiral Roughead. As I mentioned, the East China Sea, 
because of the nature of the activity that has taken place and 
what could spin off there. And then, simply, because of the 
unpredictability and the consequences of North Korea becoming, 
let me just say ``problematic'' again, I think those are the 
two that have the greatest potential, not simply from high 
probability, but consequence because of the forces that are 
involved and what would be unleashed if it can't be de-
escalated.
    And because of the countries that are involved, that really 
is the real economic engine in Asia.
    I think it is important that, as we look at those two 
problems, our relationship with China and how those two 
problems are addressed will become critically important.
    Mr. Nugent. Is it your estimation that we have the proper 
resources in place to, I guess, help influence the decisions of 
China that, you know, we also have, you know, it is always 
great, you know, in conversation when you have negotiations on 
any level, but that has to be backed up by the sword at some 
point, to make it credible.
    Do you believe that we have the proper resources in the 
proper locations that do what this administration is proposing 
that we do?
    Admiral Roughead. Proposing with regard to rebalancing?
    Mr. Nugent. Yes.
    Admiral Roughead. Well, I think there are things that we 
need to do. One, as we look to the future, looking at the new 
technologies that are going to be brought to bear, making sure 
that we are not shorting the current readiness, because 
readiness, as you know, declines very rapidly. I have been 
there before, as a young officer.
    And if we don't pay attention to that, you may have shiny 
things on runways and on ships, but if you have not been 
investing in current readiness, you are not going to get out of 
them what you expect. And you will not have prepared the young 
men and women who operate them properly and rightfully to do 
the job that we are gonna ask of them.
    Mr. Nugent. And I am sure that China in particular, but our 
allies are hearing, you know, comments back here in regards to 
folks wanting us to reduce our footprint of our military 
overseas.
    What kind of impact do you think that has on our allies, 
Doctor? I will just go back to you and leave the admiral off 
the hook for a second.
    Dr. Auslin. Congressman, very briefly, I think it is very 
difficult for us to remain credible if we don't, as the phrase 
goes, have skin in the game.
    The people in the region know the distances. It is why I 
think that the admiral's point on readiness is crucial. We 
cannot be credible if they have questions as to whether or not 
we are going to have a political debate here in the U.S. about 
bringing forces forward, if they are not already forward based. 
And that is the worries that you hear most often in the region.
    Mr. Nugent. I want to thank the panel for your comments. It 
is enlightening.
    And I yield back the balance of my time.
    The Chairman. The gentleman yields back.
    Mr. Carson is recognized for 5 minutes.
    Mr. Carson. Thank you, Mr. Chairman.
    This question is for all the panelists. Some people might 
perceive our rebalancing to the Pacific as a way of rebalancing 
away from the Middle East and our focus on terrorism and 
extremist groups.
    However, some may also see it as an extension of our war on 
terror, which many around the world as well as a few people in 
the U.S. have labeled a war on Islam.
    We know that there is no such thing, but the idea is still 
very pervasive.
    With three of the world's largest Muslim populations--in 
Indonesia, India and Bangladesh--located in this region, what 
steps could we take to assure these countries that our pivot is 
not just refocusing our war on terror? And how can we counter 
these perceptions and maintain public support if we do end up 
pursuing extremist threats in these countries?
    Dr. Cronin. Representative Carson, thank you for your 
excellent question.
    I was in Indonesia on 9/11 working for the government, in 
fact, and it seems to me that it should be obvious to the 
governments in Asia right now that the United States has 
considerably diversified our interest in dealing with them, 
beyond the immediate need to respond to the 9/11 crisis.
    And so I think this is a good development. They understand 
that rebalancing is part of this.
    It is very important that everybody understand the United 
States has important global interests in the Middle East. We 
are not pivoting away from those interests, but we are trying 
to do them much more cost-effectively, strategically and 
intelligently so we can defend our global interests, and that 
is important.
    And finally, terrorism and political violence are going to 
continue to be part of the rest of our lives. Everything we can 
do to work with the law enforcement, judicial capacity of these 
countries; help the democratic movement in countries like 
Indonesia, which faces a crucial election next year. This is 
something that can go a long way toward self, sort of, 
provision of defense from these countries.
    Thank you.
    Mr. Carson. Yes, sir. Thank you.
    Admiral Roughead. I would say that as you look at the 
countries that you mentioned, the relationship that we have 
there is very positive. I do not believe that it is seen at all 
as a shifting of our war on terror into that region. And I 
think it is largely due to the fact that our presence and our 
influence and our activities tend to be largely off-shore, and 
therefore there is not a sense that America is coming to stay; 
that America is there to help but not coming to stay.
    Mr. Carson. Dr. Shinn, you are in deep thought over there, 
sir. Any----
    [Laughter.]
    Dr. Shinn. Only because I am not sure, I am not confident 
of my ability to answer that question.
    Mr. Carson. Yes, sir. Yes, sir. Thank you. Mr. Auslin.
    Dr. Auslin. I would echo Dr. Shinn's comment.
    Mr. Carson. Yes, sir.
    Thank you all. Great answers.
    Mr. Chairman, I yield back my time.
    The Chairman. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here this morning. 
I have enjoyed our members' questions and your testimony.
    I didn't expect to make this a China-specific hearing, but 
it seems like from my trip to PACOM back in 2011, all of our 
allies and friends and partners pretty much had China on their 
minds. So they seem to be the 800-pound gorilla in the room.
    So I have a couple questions. I am going to try to stay on 
track, but there are so many things that we could talk about in 
so limited amount of time. Could we go back to why is China 
investing so much money into arms and their space programs? And 
I would like to start with Admiral Roughead.
    If we can just kind of keep it short----
    Admiral Roughead. One, because they can. Two, because they 
have seen the trends in modern warfare, and they are making 
those investments that will preserve options for them, much the 
same as we look at the threat and developments and we invest in 
those things that we believe will give us the best options. 
That is about as short as I can get it.
    Mr. Palazzo. Anybody else want to add?
    Dr. Cronin. Back after the first Gulf War I was working 
with a U.S. military PLA exchange. And the PLA said then--PLA 
general, ``We want to know how to use space so we can leap frog 
our capabilities the way you have done it in the Gulf War.'' 
They have been working consistently toward this path. They 
think they will get there by the middle of the century. Who 
knows, their political, socioeconomic tumult may prevent that 
from happening? But I think they want to clearly break our 
superiority in space.
    Mr. Palazzo. I would have to agree with you, Dr. Cronin, on 
that. I mean, by 2020 they plan on being on the moon. And we 
can't even launch American astronauts on American rockets from 
American soil. And I wish the American people would wake up to 
that reality, and I think they may have us prioritize, or at 
least try to keep our leadership in space.
    I have heard also the words ``delay,'' ``deter,'' and 
``deny'' coming from, you know, part of their modernization of 
their warfare. Who are they trying to deny, delay, and deter, 
and for what reasons?
    Admiral Roughead. Obviously, they benchmark against our 
military. And they know that we are the most formidable force 
and that we have interests and that we will want to support our 
interests in the Asia-Pacific region and they want to have 
options against that.
    Mr. Palazzo. Even though we have been pretty much a 
peacekeeping and stabilizing force in the region. So they have 
no known enemy, I assume. I mean, they are the world's largest 
population, second largest economy.
    Does anybody--is China, are they fearful of an external 
threat? Does anybody want to take a shot at that? Somebody 
knocking on their door?
    Dr. Auslin. Well, I think that looking at what China's 
concerns are, primarily and overwhelmingly, I think it is 
internal and it is domestic. And I think that is what worries 
the leadership most every day. But that is tied to what they 
can do abroad, both whether you believe that they use it to let 
off steam internally or because part of what they want to do is 
increase that sphere of influence, as all rising powers do.
    To get back a little bit to your question earlier--and I 
think this may answer part of it--they also want to--if they 
can deter the United States and they can deny other countries 
in the region from their own security objectives. And I think 
that the Chinese leadership understands, again, that there is 
a, you know, there is a huge terrain between the types of 
incidents that you have today and the United States getting 
involved. And so the degree to which you can complicate the 
decisionmaking here, is it worth it? Is it too costly? That 
allows you a freer hand in the region, vis-a-vis other nations, 
with which you have current problems, like Japan or like 
Vietnam.
    Mr. Palazzo. If the shipping lanes in the Pacific region, 
and we know most trade and commerce, I think, is 80 percent, 90 
percent of the world's trade or commerce goes by sea, and a 
majority of it is actually in this region. If the United States 
of America is no longer able to keep the shipping lanes open 
and free for commerce and passage, what kind of implications 
would that have on the U.S. economy? And that may be your best 
guess.
    Admiral Roughead. If the shipping lanes are disrupted or 
unpredictable then it will have a global effect, simply because 
of where the global economy is really being energized. Shipping 
lanes are absolutely key. They have been for centuries and they 
will continue to be. Who controls the shipping lanes will 
really have the upper hand, and that I think, from the 
perspective of a navy, that is the ultimate question, who 
controls the shipping lanes.
    Mr. Palazzo. Thank you, gentlemen.
    My time is expired. I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Good to see all of you here. Thank you for your testimony 
today.
    And particularly, Admiral Roughead, good to see you and 
your wife.
    One of the things in this hearing, I think, centers around 
the question of is this all about China, this rebalancing all 
about China. I think Dr. Shinn, you were pretty clear about 
saying, yes it is, it is absolutely all about China. Am I 
correct?
    Dr. Shinn. Actually, no. If I----
    Mrs. Davis. Oh.
    Dr. Shinn. If I could answer, I think it is as much about 
China and its alliance system in East Asia, particularly the 
relationship between the PRC and North Korea and the PRC and 
Pakistan, that in the long term makes this such a difficult 
proposition.
    And to tie it to a question from an earlier observation, I 
think the committee would probably agree that the sort of, 
likelihood of the immediate risks to the security of the U.S. 
on our allies is higher--is greater posed by North Korea or 
arguably by Pakistan in terms of nuclear proliferation, in 
terms of state-sponsored terrorism, and all the other mischief 
that they can engage in, and that therefore a rebalancing 
strategy really has to keep that challenge very clearly in 
focus.
    Mrs. Davis. Thank you. I appreciate that clarification.
    Would any of you like to add to that? And if you could do 
it really quickly? I would like to turn to Japan for a second. 
We haven't discussed it.
    And Dr. Auslin, all about China, not necessarily?
    Dr. Auslin. No, I think it is not all about China.
    I would also, you know, raise the question, if the 
rebalance is about economics, do we need a rebalance for 
economics. We just need a policy that encourages free trade. If 
it is about politics, we don't need a rebalance because nobody 
is going to stop the President from going to the East Asia 
summit.
    When we talk about the rebalance, I think we really should 
be clear. It really is, I would, argue about security, and then 
that raises the other questions.
    But it is about what type of Asia do we want to see. I 
think we want to see a liberal Asia, and we have seen great 
strides in that over recent decades. It is about how we want to 
help our allies and partners like Japan play the type of role 
that encourages those developments.
    And the more that we focus on China, I think we do at times 
have the potential of missing the much broader questions, 
again, that go to the fundamental issue of why are we even 
involved. And it is because that it helps us, but it also helps 
the people of Asia.
    Mrs. Davis. Thank you. I appreciate that.
    I might just go on, then. I mean, one of the issues, of 
course, around cyber warfare is one way that we focus on China. 
And I think the concerns have often been just about our own 
education system and being certain that we have the capacity 
that we have people in the pipeline, essentially, that are 
gonna be able to tackle these challenges for the future. I 
think that is something that we should be concerned about, and 
I hope that that is something that we are all able to focus on, 
as well.
    If we could just turn to Japan for a second, because we are 
very aware, of course, that Prime Minister Shinzo Abe has 
focused on economic reforms, and yet we also know that there is 
certainly discussion at least about the Japanese Self-Defense 
Forces. And what would you like to add to that discussion in 
terms of just really providing an opinion. How likely do you 
think there might be some changes within the policies within 
Japan?
    Dr. Cronin. I think it is very likely that we will see them 
whether we see them under Prime Minister Abe's watch or whether 
it is his successor, or successors, we don't know for sure. He 
is certainly going to try.
    The Japanese have been working on this for decades. They 
are taking, step-by-step, more responsibility for their self-
defense. That is the way it ought to be. It was an 
unsustainable proposition that they would forever be the only 
country that would be pacifistic and yet developed in the 
world. That was never going to be sustaining.
    So we have an interest in working closely with the Japanese 
to make sure that their improvements in defense are congruent 
with our security interest in the region. And I think that is 
why we need to embrace the defense guidelines.
    I was part of the 1990s review. We need to be very 
assiduous in promoting a review of the defense guidelines over 
the next year so we can make sure their capacity in roles and 
missions as they change are good for the overall region and 
good for U.S. interests.
    Dr. Auslin. If I could just jump in very briefly. I would 
say, though, we have to be very aware of the constraints that 
Japan faces--budgetary constraints which I think will limit the 
natural moves towards modernizing and building up the military, 
and the demographic constraints. Those are going to 
increasingly weigh on Japan in the coming decades.
    And so I don't think it is--I think the will, certainly, 
and a clarity of understanding of the challenges that Japan 
faces, and the threats it faces, is there. The means for Japan 
is even more straightened than the means here.
    Mrs. Davis. Admiral Roughead, quickly--I think my time just 
ran out. Did you want to say something very quickly? Mil-to-mil 
has obviously been important with Japan.
    Admiral Roughead. Absolutely. And I think what my 
colleagues mentioned was the fact that it is time to work 
closely with Japan and shape their way going forward.
    Mrs. Davis. Thank you.
    The Chairman. The gentlelady's time has expired.
    Mrs. Noem.
    Mrs. Noem. Thank you, Mr. Chairman.
    I want to thank the panel for being here.
    I want to go back a little bit to Representative Palazzo's 
line of questioning in regards to China and their modernization 
of their military force, and some of the challenges that we 
faced as a country as far as fiscally--our budgeting process, 
our lack of being able to pass appropriations bills, operating 
under CRs [continuing resolutions], the way that our contracts 
are affected within our military in that process, and the lack 
of our ability to really look forward and be visionary in how 
we invest in our military structure force, and the equipment 
that our men and women need to really go to war properly.
    I would like you to speculate for me a little bit on the 
timeframe that you could possibly see where China could be 
modernized to the point where they do have a military force 
that would be comparable to ours or even a step ahead.
    Admiral, if you would start, and if anyone else would like 
to weigh in, that would be wonderful.
    Admiral Roughead. I think you almost have to parse it into 
two dimensions. It will be quite some time before China has the 
means to be the global force that we are, because of our global 
command and control capability, our global logistics, and the 
size and type of the force that we have designed to be not only 
in Asia, but in the Middle East and elsewhere. We are the only 
global force.
    So, I would say that if China were to pursue wanting to 
take over that space, we are talking decades.
    Mrs. Noem. So size of force would be a challenge----
    Admiral Roughead [continuing]. Size of force----
    Mrs. Noem. But what about technology; the ability with new 
weapons that could be more effective than what we are currently 
using today?
    Admiral Roughead. I still think that to be global and to 
influence globally as we can, it is decades if they decide to 
pursue that.
    Mrs. Noem. Okay.
    Admiral Roughead. The investments that they have put in 
place are really regional. And we have seen over the years 
where that is becoming more challenging and more challenging. 
And that is why, to your earlier point, it is so important to 
get away from talking about the eaches of systems, and really 
look at what is it that we want to do; how do we get our 
process in place and functioning the way that it was designed 
to function, and it functioned quite well; and to get away from 
continuing resolutions and sequesters.
    And right now, I don't know how long it will take, but I 
think that we are doing damage to ourselves. You know, we look 
at what China is doing. I think we need to look at what we are 
doing. And we are damaging ourselves by the short-term, 
disruptive nature of trying to plan for a very, very complex 
future.
    Mrs. Noem. I appreciate the candid response.
    Anyone else would like to weigh in? Dr. Shinn.
    Dr. Shinn. Yes, I would maybe echo Admiral Roughead's 
observation, but take it even a step further. I mean, it seems 
to me that, to answer your very thoughtful question, you could 
probably--I mean, you probably deserve an explanation from the 
Obama administration to that question. Namely, what is the 
range of likely contingencies in which there is a risk of a 
confrontation? Number one. For each of those contingencies, 
what is the trajectory? What does it mean in terms of the 
trajectory of the PLA buildup, which you had presented to you I 
think just last week?
    Number three, what does it take? This goes back to that 
third question. What does it take, as far as we can infer, to 
deter the PRC from actually engaging in expansion in that 
contingency?
    And then to the critical question, number four, what is the 
gap? What is the gap between what is required to exercise 
deterrence versus what is going to happen between sequestration 
and all the other cutbacks that we are likely to see?
    And then it is up to you, I think, to assess, is that an 
acceptable risk? If that delta is big, then we have a big 
problem. If that delta is small, then, you know, that comes 
with the territory.
    Mrs. Noem. Do you think that the administration has the 
answers to those questions? Or do you believe that that should 
be more guideposts that everyone here should start looking at 
and analyzing and trying to find the answers to?
    Dr. Shinn. Probably both.
    Mrs. Noem. You do believe that the answers may already be 
there--they have analyzed those and may potentially know what 
the situation is that we are currently facing?
    Dr. Shinn. Actually, that is just supposition on my part, 
since I just teach engineering these days.
    [Laughter.]
    Mrs. Noem. Okay. Well, thank you.
    Anyone else like to weigh in? We are 20 seconds left.
    Dr. Auslin. Just very briefly. First to chime onto this 
point. It is why I very much support Representative Forbes's 
call for an interagency review. We haven't had a strategy 
coming out of DOD [Department of Defense] since 1998. It is 
long overdue. We need it.
    Secondly, even if China does develop along the lines we 
have predicted, they still will be far behind us on the 
training. They don't have an NCO [non-commissioned officer] 
corps, the experience. So, there is time, I think, that we have 
before we face. What we don't have time is China vis-a-vis 
other Asian nations, and that draws us in.
    So, one metric, Congresswoman, as you have mentioned, is 
U.S.-China. The other one is China versus the rest of Asia.
    Mrs. Noem. Okay. Thank you. Appreciate it.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And I thank the witnesses. Your testimonies were very 
informative this morning.
    I think my questions would be to the military. This 
weekend, Prime Minister Abe of Japan was able to gain a 
landslide victory for his ruling Liberal Democratic Party in 
the upper house of the Diet. Now, what impact do you see that 
having on Japan's role in this rebalance to the Asia-Pacific 
region? Will the Abe administration be able to leverage this 
victory to press for more progress in the development of the 
Futenma replacement facility in Okinawa? And will a more stable 
government of Japan help the U.S. advance other defense- or 
security-related matters in the bilateral relationship?
    Admiral.
    Admiral Roughead. This may sound like a dodge, 
Congresswoman Bordallo, but I think it is early. I think as 
Patrick mentioned, it will change the nature of the debate and 
the discussion within Japan and with a lean more toward 
enhancing a military and changing that military. How quickly 
that will happen and in what form I think is still to be 
determined.
    On Futenma, I have been watching Futenma since 1994, and I 
am not sure I care to predict what the outcome on that may be.
    Ms. Bordallo. Thank you, Admiral. We kind of feel that way 
in Guam.
    Was there anybody else that wanted to quickly answer? We 
have so little time up here, so if you would make your answers 
brief.
    Dr. Cronin. The Abe administration wants to move forward on 
Futenma. I think as you know, Congresswoman, the situation in 
Okinawa, though, has not changed appreciably. So they still 
have to figure out how to overcome the local opposition. I am 
looking forward to being in Japan and then in Guam to talk 
about this basing in the next few weeks.
    Ms. Bordallo. Very good. Thank you.
    My next question is, what impact has the delays in the 
realignment of Marines from Okinawa to Guam had on our 
political capital and regional credibility? Now, this is an 
issue that was raised in last year's CSIS [Center for Strategic 
and International Studies] report on the rebalance of our 
military to the Asia-Pacific region.
    I am concerned that we are losing credibility by the 
obstruction that we continue to face from the U.S. Senate. And 
this feeds the overall perception that the U.S. is not serious 
about the rebalance, which couldn't be further from the truth, 
as you can see from this hearing.
    Admiral, would you like to start out on that?
    Admiral Roughead. I would say that it is--as I look at it, 
it is probably less about the forces that may be moving around, 
and more about the inability to lock down on a coherent 
strategy and the actions that support a strategy. That is the 
issue that I think people look at and scratch their heads.
    Ms. Bordallo. Anyone else like to comment? Yes?
    Dr. Shinn. I would just say I think you are absolutely on 
the money. I think you have been involved for a long time in 
the FRF [Futenma Replacement Facility]. And I think you are 
absolutely right that the failure to move forward with this has 
done a lot of damage to our credibility in the past, much less 
sort of a big test point for whether the so-called ``Asia 
rebalancing'' is a real strategy or whether it is just a 
speech.
    Ms. Bordallo. Thank you.
    I have one final question. And that is about how we 
resource and prioritize funding for the rebalance to the Asia-
Pacific region. Chairman Forbes, Chairman Wittman, 
Congresswoman Hanabusa and I sent a letter to the National 
Security Adviser, Susan Rice, about the need to develop an 
implementation plan so that departments and agencies have a 
clear road map for how to prioritize resources to this 
strategic imperative.
    Is there some example that we could use as a template for 
developing guidance for the current rebalance?
    Yes, Doctor.
    Dr. Cronin. We did three reports out of the Department of 
Defense in the 1990s. We need to do a fourth one. And it needs 
to be more detailed. There can be a classified one for 
government purposes and there can be an unclassified one for 
public purposes.
    Ms. Bordallo. Very good. Anybody else want to comment on 
that?
    Admiral Roughead. The only thing I would add is that it 
needs to take into account more than just the Department of 
Defense because of the many, many interests that are at play--
economic, trade, diplomatic. And I think there are real 
opportunities, but it is a question of can, you know, if 
rebalance in the strategic objectives we have in Asia are the 
real thing, then how do we come together as a nation, apply the 
appropriate resources to achieve the ends that we seek for a 
prosperous Asia.
    Ms. Bordallo. Thank you, gentlemen. Thank you very much for 
your answers.
    And I yield back, Mr. Chair.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
our panel of experts for their testimony today. Your insights 
are clearly invaluable as we look to rebalance to the Asia-
Pacific region.
    Admiral Roughead, if I could start with you, I want to talk 
about UUVs [unmanned undersea vehicles] for a moment. During 
the February 26, 2013, hearing on the future of seapower, you 
remarked that the Virginia class submarine will be the 
mothership for what you believe to be an extraordinary 
potential in unmanned systems in the undersea.
    Can you expand on this? I know you spoke about it earlier 
today, but in terms of UUVs, but can you expand upon this in 
terms of the challenges that we face as we rebalance to the 
Asia-Pacific region since, as you know, the current Navy 
shipbuilding plan allows the existing fleet of dedicated SSGNs 
[nuclear-powered guided-missile submarines] to retire, and, in 
its place, relies on the Virginia payload module.
    Admiral Roughead. I really do believe that the Virginia 
class with payload modules has the potential to become the 
mothership of networks of unmanned systems that would operate 
in large ocean areas, in denied areas and very challenging 
areas. Because of the size of the modules, you can put the 
vehicles in there. You can bring them back in. You can husband 
them.
    And I believe that with more submarines with that 
capability, we actually expand our reach and our effectiveness. 
But it does require a companion aggressive approach to where do 
we want to go with unmanned underwater vehicles and taking on 
the challenges of the technology that it imposes. But I really 
do believe that the future, if we designed it right, Virginias 
with payload modules and UUVs will dominate the undersea.
    Mr. Langevin. Thank you, Admiral.
    Dr. Cronin, can I turn to you about one of the areas that 
you commented on within your prepared remarks. You stated that 
a third military mission is to counter anti-access area-denial 
capabilities, more specifically, you highlighted that one of 
the steps to counter A2AD future capabilities is to look at a 
new theater anti-submarine warfare and undersea warfare 
capability.
    Given the very interesting developments in USB [undersea 
battlespace] and UUV technologies, can you elaborate for us on 
what this new capability, as well as the new intelligence, 
surveillance and reconnaissance architecture you mentioned 
might look like, and, in particular, how might allied nations 
interface with such networks?
    Dr. Cronin. Thank you, Congressman. If you think of a 
pyramid and at the top of the pyramid is the very most 
difficult warfighting activities that we must be prepared to 
do, even if they are not likely to happen in the near term, and 
you think about the foundation as the kind of intelligence/
surveillance/reconnaissance that can be widely shared with many 
partners, we need to start building that foundation, for 
instance, for operations--such as disaster response with 
countries in the region. We need to increase interoperability 
with key allies with undersea assets like Japan, Australia, 
India, so that we could stitch together, essentially, a theater 
ASW [anti-submarine warfare] plan for the longer term.
    And then we need to figure out how to make our unmanned 
vehicles truly autonomous. That is the next step. And when we 
do that, we will be able to cover a much greater security 
sphere in line with allies and partners so that we can make 
sure that the shipping lanes stay open, so that we can make 
sure there is no coercive use of force or untoward intelligence 
that is going on because of the growing submarine and undersea 
capabilities in the region.
    Mr. Langevin. Thank you, Dr. Cronin.
    Well, my time--still have time on the clock. Let me turn to 
another topic of concern to me, and that is cyber. I have long 
been concerned about our ability to--of our basing and 
infrastructure to withstand cyber attacks that could reasonably 
be expected in any conflict scenario, especially a contingency 
in such areas as the Korean peninsula--the East China Sea or 
South China Sea.
    What is your assessment of the ability of our domestic and 
overseas base infrastructure, particularly the external inputs 
that, such as electricity, that may not be protected by DOD's 
expertise, to withstand a cyber attack and continue to enable 
our military to actually function.
    Dr. Cronin. Congressman, just briefly, when there was an 
earlier discussion on China and PLA capabilities, it is not 
just the Chinese. It is the Russians. It is the North Koreans 
and others. When you deal with cyber, we are vulnerable. And 
while there may be uncertainty about the long-term military 
buildup, there is no uncertainty about the vulnerability to our 
cyber networks and our allies' and partners' cyber networks.
    Mr. Langevin. Admiral, you want to----
    Admiral Roughead. Yes, I would just say that we will never 
be able to take cyber security for granted. And you have 
touched on some very significant points. The infrastructure, 
power, all of that has to have an integrated approach. And it 
needs to be just beyond our base structure. Because of the way 
that we operate as a nation, we have to have more of a national 
view and national policy and national confidence in cyber if we 
are going to be effective.
    Mr. Langevin. Thank you.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Panelists, thank you so much for joining us today. As you 
can imagine, lots of questions about what is developing before 
us there in the Asia-Pacific. I appreciate getting your 
perspective. Having recently travelled to the Asia-Pacific, 
lots of concerns there, obviously, with the relationship they 
have, that we have with our allies. There are concerns, too, 
about China's behavior in the region.
    I wanted to get your perspective on where our relationships 
with our allies need to be going in that area to make sure that 
this is a collective effort as far as the actions of China in 
that region. Obviously, they are continuing to build a 
presence, continue to be somewhat belligerent in the area, 
expanding their presence into other areas of the Pacific where 
we haven't seen them before.
    So I just want to get your perspective on where you believe 
our relationships need to be building with allies in the area 
and what we need to be doing to working, not only in our 
relationships with individual countries, but also relationships 
there with the collective groups of countries in that region.
    Admiral Roughead, I will begin with you.
    Admiral Roughead. Okay, thank you. Thank you very much.
    I think our relationships with our allies are good. And I 
would also say that, as we look at the region, we should talk 
about our allies and our like-minded partners.
    Mr. Wittman. Right.
    Admiral Roughead. And we really need to think anew about 
some of the emerging countries that are there. The, as I said, 
relationship is good. Activities, I believe, are appropriate to 
the time and what our interests are.
    But there are some areas where I really think that we need 
to look into. One is on how we elect to, and then how we move 
quickly through technical transfer. You know, we will always 
protect what we need, but our system is almost designed to make 
it difficult to share with like-minded partners and allies on 
some of the things that will really make a difference if we 
come together.
    The other is our ability for the people that we have who 
serve and the countries with whom we want to have 
relationships. How can we mix the--I don't like to use the word 
``exchange'' because our current system is a one-for-one. And 
that can be very hidebound for countries that may not have the 
resources. So I would look at, how do we want to expose and 
inform the people--the U.S. military.
    Mr. Wittman. Right.
    Admiral Roughead. And then how do we bring others from 
other countries? And we should redesign the means and the 
system for doing that. Because I think that is huge. When young 
people serve and work together, that relationship is going to 
last a lifetime. And we just make it too hard.
    Mr. Wittman. Absolutely.
    Dr. Auslin.
    Dr. Auslin. Congressman, thank you.
    I think you have raised an absolutely crucial point. And I 
think we have to have a serious discussion about how we extend 
or think about going beyond the hub and the spoke, which does 
not mean getting rid of our current treaty commitments. But how 
do we get our allies to work better together? That, to me, is 
crucial.
    Relations between Japan and South Korea are very poor right 
now, probably the worst that most of us have seen in a long 
time. They are not getting any better. We need to think much 
more creatively. Number one, as I said, how do we get them to 
work better together and with us?
    Secondly, how do we get allies such as Japan, for example, 
in the northeast or Australia in the southeast, how do we get 
them to play a larger role, vis-a-vis the smaller partners that 
we want to work with and have a sort of leading, guiding 
mentorship type of role in terms of things like public goods 
and general security within the region. Those are areas I think 
we should focus a lot more on, in which I think we would get 
buy-in from all of our partners.
    Thank you.
    Mr. Wittman. Gotcha. Very good.
    Dr. Cronin.
    Dr. Cronin. A couple of points that I would add to my 
testimony. One was we need to think broadly globally, even 
about other countries that can help our Asian allies and 
partners, so--NATO [North Atlantic Treaty Organization] 
partnerships with Asian countries.
    Mr. Wittman. Yes.
    Dr. Cronin. It may seem symbolic, but they bring great 
expertise, doctrine, inter-operability, know-how. That is the 
kind of thing, as we think about next year's NATO summit in 
2014 and NATO draws down on ISAF [International Security 
Assistance Force] we could look more at, but as well as India 
and other countries that are not allies. But as they look east, 
we need to help India play a bigger role in East Asia and in 
the Pacific.
    Japan is--its course of diplomacy right now. Korea, as Dr. 
Auslin said, it is the Japan-Korea relationship that we really 
can work on. Australia, we can do more to push our Australian 
allies to spend a little more money on defense, even while we 
work with them on inter-operability. Philippines, we need to 
build their capacity.
    Mr. Wittman. Yes.
    Dr. Cronin. Thailand, we need to make sure that they are 
using ground forces to, not just influence their own campaign 
in the south, but also--against extremism--but also to 
influence Myanmar, where the army has played a dominant role.
    Mr. Wittman. Very good. Thank you.
    Dr. Shinn, any perspective? Okay.
    Dr. Shinn. Nothing to add, sir.
    Mr. Wittman. Okay, very good.
    Mr. Chairman, it looks like my time is at end. So I will 
yield back.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Gentlemen, welcome. And, Admiral Roughead, it is good to 
see you again.
    Dr. Auslin, I want to sort of go back to what you were 
talking about. You know, I was struck in your testimony where 
you talk about what is the U.S. role. Are we going to be the 
cop on the beat? Are we there to mediate disputes between the 
Japanese and the Koreans? Are we there to help the Vietnamese 
fisherman when the Chinese push further? Are we there to help a 
territorial dispute? Or are there other things that we should 
be doing? You--in a previous answer, you spoke about 
coordination between different agencies within the U.S. 
government, State and DOD, for example.
    You know, I grew up in Southeast Asia. And I was struck 
after I had not been to the Philippines in a long time and went 
back to the Philippines how pervasive the South Korean presence 
was. And in Thailand, you know, the fact that the South Korean 
presence, the Japanese presence, we had really thought in the 
1990s that the Chinese were just going to come in, and in the 
early 2000s and dominate everything. But I sort of feel like, 
in my travels throughout Southeast Asia, specifically, that 
that has really not happened as much, almost as if some of the 
Chinese have overstayed their welcome or have not acted in a 
way that was well received
    Could you speak a little bit to how we leverage some of 
these other strengths, partnerships, ASEAN, for example, or 
economic relationships that we have to, you know, promote 
American presence or influence?
    Dr. Auslin. Ms. Congresswoman, thank you.
    I think that the first question we have to ask, and I am 
not sure we ask it all the time, is what do those countries 
want? What are their concerns? What are their needs? We look at 
it often from a security perspective because we have these 
commitments. And that is proper and right. But in terms of 
building relationships, it does have to be a two-way 
relationship. It does have to be a give and take, as always.
    The great development we have seen of democracy and free 
market systems throughout Asia over the past generation is 
something that we should be encouraging. It is something that I 
think our allies and closer partners also have been a central 
part of, and, therefore, can work to inculcate those norms to 
help, you know, help with expertise and the like.
    That, to me, is part of a rebalance. And it is part of 
saying that what we are looking at is the long-term development 
of this region.
    Japan has extraordinary expertise in this. South Korea has 
expertise. Australia, obviously. I am not sure that we do 
leverage that in the same way, partly because we are focused so 
much on near-term concerns, and partly because, as we have 
talked about before, we do think of this in a one-point to one-
point hub and spoke set of relationships.
    We need to work more with ASEAN and encourage it. But what 
I think we should be doing probably is working with those 
nations that share those same values and have the same 
interests. As you have said, Japan and South Korea are already 
in the region, and therefore look for ways that you get a group 
of willing nations to come together and move the entire region 
forward.
    Thank you.
    Ms. Duckworth. Admiral, I just wanted to talk to you a 
little bit, sort of building on those. I think that there are 
relationships that the U.S., especially our military, has in 
the Asia-Pacific region that perhaps Americans are not as well 
aware of and even other allies.
    For example, I think of Indonesia specifically. I think 
most Americans are surprised to find out we have been 
conducting Operation Garuda Shield in partnership with the 
Indonesian military for quite a while now.
    Is there any other types of those types of partnerships, 
the State Partnership Programs? You know, I think of the--I 
think it is Oregon works with Indonesia and Hawaii works with 
Thailand. And sort of look at, are there any other 
relationships like that--you are talking about people who grow 
up together in different militaries and work together, that we 
should be leveraging?
    Admiral Roughead. I think that one of the things that needs 
to be done as we look at the security is exactly what you have 
referenced, that you have to look at the entire spectrum of 
things that are taking place.
    The one area that I know many have talked about before is 
this whole issue of IMET, International Military Education and 
Training. The amount of money that goes into IMET and many of 
the programs that are outside of your authority because they 
reside in foreign affairs and what have you, it is really, I 
think, a bit incoherent.
    And there should be a rationalization of how are we 
applying these various programs.
    The other thing I would say is that we can't be too quick 
on the switch to shut them off because of something that 
happens, because even though we may be fairly callous in doing 
that, that is never forgotten.
    And I think that there has to be a longer term, more 
moderated approach on how do we develop these very important 
personal relationships.
    The Chairman. There appears to be no more questions from 
members.
    Well, I really appreciate you being here today. This I 
think there are some very important points brought out in your 
testimony and in your response to the questions.
    This is something that has been coming up before me quite 
often. I have met with ambassadors from the region. I have met 
with legislators. My counterpart in the Japanese legislature 
came by a couple weeks ago, and he was concerned. He said there 
are ever-increasing flights by the Chinese that encroach or 
come closer to their airspace. And he said they had to scramble 
their jets 300 times last year. And he said it is increasing at 
a faster rate this year.
    So those kind of tensions I think will be building as we 
are pulling back. And if we don't keep a forward presence--I 
know Admiral Locklear testified recently.
    He said, you know, the uprising or the, you know the 
problem that came up in Korea not too long ago, he said usually 
when that happens, he sends a carrier. He says I don't have a 
carrier to send.
    And he said then a backup is when it happens I send a B-2 
or some F-22s, and I don't--you know, we are not flying them 
now, so I don't have them.
    So I think I hear this from this region, I hear it from 
everywhere around the world, people are very concerned. As you 
said, they are watching our budgets and they are watching what 
we are doing.
    And I kind of liken nations to individuals. There are just 
more of them. And the temperaments the same, the personalities. 
And I think we all remember the schoolyard bully that unless 
somebody bloodied his nose, he kept pushing.
    And I see that happening. And if nobody bothers the bully, 
then people kind of want to make friends with the bully.
    And when we pull back, if we leave a vacuum, somebody else 
is going to fill it.
    And I think these people from these other regions 
understand that we are not of a nature to want to come in and 
dominate. We don't want to come in and take over. We just want 
to keep the sea lanes open. We want to make sure that we can 
have commerce around the world.
    We would like to have peace around the world. And it is 
becoming ever more difficult, as we are having to cut back our 
military. People talk about sequestration. They forget the $487 
billion that we cut before that that is just beginning to be 
felt, the roughly $150 billion a year of OCO [Overseas 
Contingency Operations] funds, some of that, I am sure, was 
money that was coming that would have helped the base budget. 
And we have cut that back, in half this year.
    I know we are out of Iraq, but it is going to be more 
expensive this year in Afghanistan as we pull down bases and 
come out.
    So the cuts to our military are going to have significant 
impact around the world.
    And I really appreciate the points you brought out about--
okay, a speech says we are going to change our focus. What does 
that mean? What have we actually done? What can we do?
    Again, Admiral Locklear pointed out--and I am sure, 
Admiral, you lived this--but if we take the whole Pacific area, 
they could put every bit of landmass on the Earth in that area 
plus room left over for another Africa and Australia.
    And you know, we are talking about this shift when we are 
taking our Navy down to very low numbers. And we all know that 
the ships are much more powerful than they were in World War I, 
but we yet haven't figured out how to have them in two places 
at the same time.
    And it does take time. Somebody pointed out to me the other 
day, if you take all of that landmass, you know, if any of you 
are Texans, you know Texas is really big. But when you compare 
it to all of the landmass, it is not that large.
    And how long would it take, Admiral, a destroyer to--30 
miles an hour, roughly. How long would it take to cross Texas?
    Admiral Roughead. I am not a Texan. But I can tell you, it 
takes an awful long time, just to go from Guam to Hawaii. And I 
think that when you look east, you really have a distorted view 
of distance. Out there, you know, to get across the Pacific is 
about a 3-week, unless you are absolutely going at flank speed.
    So the idea of not being there and being able to respond 
quickly to the pace with which events will unfold--if you are 
not there, you are not there.
    And I think that is just the nature of the Pacific.
    The Chairman. And the point was well-made that if you give 
a speech and say you are going to do something and then don't 
do it, again, people around the world are watching. And our 
credibility is at stake. Setting red lines and then pulling 
away from them, our credibility is at stake.
    So, anyway, these kind of hearings are very important for 
the committee to focus in on where we are and what we are doing 
and what our responsibilities are.
    Meanwhile, over on the floor, we are trying to get an 
appropriations bill passed for defense to try to see how we can 
get through the year.
    Thank you very much.
    This hearing stands adjourned.
    [Whereupon, at 11:57 a.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             July 24, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 24, 2013

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 24, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I have long been concerned about the ability of our 
basing and infrastructure to withstand the cyber attacks that could 
reasonably be expected in any conflict scenario, especially a 
contingency in areas such as the Korean peninsula, East China Sea, or 
South China Sea. What is your assessment of the ability of our domestic 
and overseas base infrastructure, particularly the external inputs such 
as electricity that may not be protected by DOD's expertise, to 
withstand a cyber attack and continue to enable our military? How are 
our Japanese and Korean allies faring in their own cybersecurity 
resiliency efforts?
    Dr. Auslin. [The information was not available at the time of 
printing.]
    Mr. Langevin. The strategic guidance emphasizes the presence of 
U.S. Special Operations Forces (SOF) in the Asia-Pacific region. What 
roles do you think the SOF forces should play within the Pacific 
theater?
    Dr. Auslin. [The information was not available at the time of 
printing.]
    Mr. Langevin. I have long been concerned about the ability of our 
basing and infrastructure to withstand the cyber attacks that could 
reasonably be expected in any conflict scenario, especially a 
contingency in areas such as the Korean peninsula, East China Sea, or 
South China Sea. What is your assessment of the ability of our domestic 
and overseas base infrastructure, particularly the external inputs such 
as electricity that may not be protected by DOD's expertise, to 
withstand a cyber attack and continue to enable our military? How are 
our Japanese and Korean allies faring in their own cybersecurity 
resiliency efforts?
    Dr. Cronin. [The information was not available at the time of 
printing.]
    Mr. Langevin. The strategic guidance emphasizes the presence of 
U.S. Special Operations Forces (SOF) in the Asia-Pacific region. What 
roles do you think the SOF forces should play within the Pacific 
theater?
    Dr. Cronin. [The information was not available at the time of 
printing.]
    Mr. Langevin. I have long been concerned about the ability of our 
basing and infrastructure to withstand the cyber attacks that could 
reasonably be expected in any conflict scenario, especially a 
contingency in areas such as the Korean peninsula, East China Sea, or 
South China Sea. What is your assessment of the ability of our domestic 
and overseas base infrastructure, particularly the external inputs such 
as electricity that may not be protected by DOD's expertise, to 
withstand a cyber attack and continue to enable our military? How are 
our Japanese and Korean allies faring in their own cybersecurity 
resiliency efforts?
    Admiral Roughead. I believe the external inputs to base 
infrastructure (domestic and overseas) have improved markedly in recent 
years. Improvements in robustness, resiliency and redundancy have been 
driven by an awareness that the inputs are key to maintaining 
information technology (IT) and command and control networks. That 
said, we must not become complacent or short the necessary resources in 
this area. Continued attention, testing and resources must be dedicated 
to ensuring improvements continue to made to stay ahead of threats and 
potential adverse conditions that undermine continuity of operations.
    Regarding allies in the region, I am confident Australia is 
approaching cyber security and the importance of the reliability of 
associated support infrastructure with the same discipline and 
standards as the U.S. I am impressed with Australian standards and 
commitment in that regard. I believe high levels of resiliency are 
being pursued on installations we share with our Japanese and Korean 
allies, and my experience has been that continuity of operations can be 
maintained. I believe resiliency on shared bases is more robust than on 
host nation only installations and facilities.
    I am less confident our allies in South East Asia are approaching 
cyber and cyber support infrastructure in as disciplined and structured 
manner as are we and those countries mentioned above.
    Mr. Langevin. The strategic guidance emphasizes the presence of 
U.S. Special Operations Forces (SOF) in the Asia-Pacific region. What 
roles do you think the SOF forces should play within the Pacific 
theater?
    Admiral Roughead. Special Operations Forces (SOF) will play an 
important role throughout the Asia-Pacific region and globally. A 
properly trained and resourced SOF will remain the force with the most 
rapid response to a range of contingencies. SOF will remain the most 
responsive and lethal counterterrorism option the United States has. In 
more conventional scenarios, SOF will be highly valuable in 
intelligence, surveillance and reconnaissance (ISR) missions and in 
precursor and behind-the-lines operations. Language and regional 
familiarity of SOF forces will continue to be a tremendous asset in 
developing the skills of similar allied forces and those of like-minded 
partners.
    To maximize the value of SOF forces, appropriate investments must 
be made in enablers, i.e. responsive and agile air and maritime lift, 
ISR, unmanned systems and flexible and reliable command and control. 
Similarly, appropriate training investments must be made for SOF to 
maintain unequalled proficiency in the range of tasks likely to be 
assigned.
    Mr. Langevin. I have long been concerned about the ability of our 
basing and infrastructure to withstand the cyber attacks that could 
reasonably be expected in any conflict scenario, especially a 
contingency in areas such as the Korean peninsula, East China Sea, or 
South China Sea. What is your assessment of the ability of our domestic 
and overseas base infrastructure, particularly the external inputs such 
as electricity that may not be protected by DOD's expertise, to 
withstand a cyber attack and continue to enable our military? How are 
our Japanese and Korean allies faring in their own cybersecurity 
resiliency efforts?
    Dr. Shinn. This is a legitimate concern, especially since the PLA 
intends to use cyber attacks as a tactic of offensive operations, 
according to the latest DOD China Military Power Report. Unfortunately 
I don't know the current state of play, nor do I have any insights into 
the resiliency of either our Korean or Japanese allies against cyber 
intrusion operations.
    Mr. Langevin. The strategic guidance emphasizes the presence of 
U.S. Special Operations Forces (SOF) in the Asia-Pacific region. What 
roles do you think the SOF forces should play within the Pacific 
theater?
    Dr. Shinn. SOF forces in the Pacific theatre should be subordinate 
to PACOM plans and operations, in my view, and their activities in the 
region should be carefully synchronized with broader U.S. diplomatic, 
intelligence, and military strategy, on a country-by-country and 
regional basis. I think it particularly important that U.S. SOF not be 
drawn into local CT or COIN operations without explicit rules of 
engagement and clear political objectives, with complete visibility up 
the chain of command--political, intelligence, and military commands. 
There should be, therefore, a clear exit strategy from activities in 
the Southern Philippines.
    SOF activities in Afghanistan and Pakistan are another issue 
entirely, a complex topic that I can't address here.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
